                                                        
 
 
 




                                                    
 
 



                          AUDIT OF THE 

            OFFICE OF COMMUNITY ORIENTED POLICING

            SERVICES TECHNOLOGY GRANT AWARDED TO

                         NASSAU COUNTY 

                       MINEOLA, NEW YORK 





                   U.S. Department of Justice 

                 Office of the Inspector General 

                          Audit Division 



                     Audit Report GR-70-11-001 

                            January 2011

 
                        AUDIT OF THE 

       OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 

        TECHNOLOGY GRANT AWARDED TO NASSAU COUNTY 

                     MINEOLA, NEW YORK


                          EXECUTIVE SUMMARY 


      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Interoperable Communications
Technology Grant Award, number 2003-IN-WX-0013, awarded to Nassau
County, New York (Nassau), by the Office of Community Oriented Policing
Services (COPS) in the amount of $6 million. The purpose of this
Interoperable Communications Technology Grant was to improve
communication within and among state and local law enforcement agencies
in Nassau County and Suffolk County, New York.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Nassau’s program performance in
meeting grant objectives and overall accomplishments. Nassau was
awarded a total of $6 million to implement the grant program. In addition to
the grant award, Nassau was to provide $3,652,867 of local funding as a
required local match, making the total grant-funded program budget
$9,652,867.

      We examined Nassau’s accounting records, financial and progress
reports, and operating policies and procedures and found significant issues
regarding the implementation of the grant-funded program. Specifically, we
found:

  	 Nassau County Police Department’s system of internal controls related
     to grant administration had many deficiencies and was not adequately
     documented.

  	 We found that $5,959,165 of the $6 million in grant expenditures were
     unsupported because Nassau could not provide documentation
     supporting the specific charges made to the grant program, provide
     the value of the grant-related elements contained in the project, or
     adequately justify the costs in the contractor’s billings.

  	 Nassau claimed $9,080,645 in grant-related expenditures, including
     both the grant funds received and the local matching funds applied to


                                     -i-
             the grant program. However, we found that $9,076,609 of these
             expenditures were unallowable because the project paid for by Nassau
             was not the program outlined in the grant application or the grant
             budget approved by COPS.

      	 Nassau claimed $1,278 in overtime expenditures that were
         unsupported because the documentation supporting the overtime costs
         was not maintained.

      	 Nassau prepared Financial Status Reports that overstated grant-
         related expenditures identified by its contractor by $2,468,129.1 We
         also determined the remaining $6,608,480 reported by Nassau was
         based on invoices that were not sufficiently detailed.

      	 The progress reports and requests for grant extensions submitted by
         Nassau to COPS did not adequately describe for COPS how the
         approved grant project had changed. Specifically, Nassau did not
         adequately disclose that the grant project was merged with a larger
         radio replacement project and, as a result, Nassau was no longer able
         to monitor the grant project separately from that larger project either
         financially or programmatically.

      	 Nassau requested and received $2,468,129 in grant funding for
         expenditures that were not related to the COPS grant-funded project.

      	 Nassau did not satisfy the $3,652,867 in expenditures required for the
         local match. The $3,117,444 claimed by Nassau was overstated by
         $1,531,142. Additionally, we determined the remaining $1,586,302
         reported by Nassau was based on invoices that were not sufficiently
         detailed.

      	 Nassau did not specifically identify grant-funded accountable property,
         nor did it have a property system in place to manage this property.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.



                                                       
             1
        Financial Status Reports were changed to Federal Financial Reports on October 1,
2009. For purposes of consistency in this report, as all but one of the reports submitted by
Nassau occurred before that date, the term Financial Status Report (FSR) will be used
throughout the report when discussing the required periodic financial reporting.

                                                          -ii-
       We discussed the results of our audit with Nassau County officials and
have included their comments in the report, as applicable. In addition, we
requested a response to our draft audit report from Nassau and COPS, and
their responses are appended to this report as Appendix IV and V,
respectively. Our analysis of both responses, as well as a summary of the
actions necessary to close the recommendations can be found in Appendix
VI of this report.




                                     -iii-
                                  TABLE OF CONTENTS


INTRODUCTION ........................................................................... 1 

BACKGROUND.............................................................................. 1 

OUR AUDIT APPROACH................................................................ 2 



FINDINGS AND RECOMMENDATIONS........................................... 4 

INTERNAL CONTRAL ENVIRONMENT............................................ 4 

GRANT EXPENDITURES................................................................ 5 

BUDGET MANAGEMENT AND CONTROL ........................................ 8 

REPORTING ............................................................................... 10 

       FINANCIAL STATUS REPORTS ........................................... 10 

       PROGRESS REPORTS ......................................................... 13             

DRAWDOWNS ............................................................................ 13 

MONITORING CONTRACTS ......................................................... 15 

MATCHING COSTS...................................................................... 17 

ACCOUNTABLE PROPERTY ......................................................... 17 

PROGRAM PERFORMANCE AND ACCOMPLISHMENTS ................. 18 

CONCLUSIONS ........................................................................... 19 

RECOMMENDATIONS ................................................................. 20 



APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .......... 21 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS....... 22 

APPENDIX III - TOTAL CONTRACT BILLING AND GRANT RELATED 

    BILLING AMOUNTS ............................................................ 23 

APPENDIX IV – NASSSAU COUNTY'S RESPONSE TO THE DRAFT 

    AUDIT REPORT .................................................................. 24 

APPENDIX V – OFFICE OF COMMUNITY ORIENTED POLICING 

    SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ....... 26 

APPENDIX VI – OFFICE OF THE INSPECTOR GENERAL 

    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

    TO CLOSE THE REPORT ...................................................... 32 

                                INTRODUCTION
 
      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Interoperable Communications
Technology Grant, grant number 2003-IN-WX-0013, awarded by the Office
of Community Oriented Policing Services (COPS), to Nassau County, New
York (Nassau) in the amount of $6 million. An additional $3,652,867 was to
be provided by Nassau as the local match required by the grant program.
The purpose of this Interoperable Communications Technology Grant was to
improve communication within and among state and local law enforcement
agencies in Nassau County and parts of Suffolk County, New York.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed Nassau’s program performance in
meeting grant objectives and overall accomplishments. As shown in the
table below, Nassau was awarded a total of $6 million to implement the
grant program.

        INTEROPERABLE COMMUNICATIONS TECHNOLOGY GRANT 

                  AWARDED TO NASSAU COUNTY, NY 

                         AWARD      AWARD
       GRANT AWARD                              AWARD AMOUNT
                       START DATE  END DATE
      2003-IN-WX-0013         09/01/2003         12/31/2009   $6,000,000
     Source: Office of Community Oriented Policing Services

Background

       In FY 2003, COPS was appropriated approximately $67 million for the
Interoperable Communications Technology Grant Program; a competitive
grant program for state and local jurisdictions to improve communications
within and among law enforcement agencies. The rules established for the
grant program included a $6 million limit on federal participation for
individual grants and required grantees to provide a local match of at least
25 percent of the total value of the grant-related project.

      Nassau was 1 of the 74 Metropolitan Statistical Areas that COPS
preselected or invited to compete for grant funding. COPS asked that those
seeking funding submit comprehensive proposals to include a clear and
demonstrated plan for improving interoperability. From those that were
invited, 58 agencies, including Nassau, submitted proposals.



                                        - 1 -

      In collaboration with the Department of Homeland Security,
Emergency Preparedness and Response Directorate, which administered a
similar program for a different pool of applicants, COPS established a peer
review panel to identify the strongest proposals to be funded. The peer
review panel assembled members of the public safety community, the
National Institute for Standards and Technology, the Wireless Public Safety
Interoperable Communications Program, and the National Institute of Justice
Advanced Generation of Interoperability for Law Enforcement Program. In
September 2003, COPS announced that Nassau and 13 other agencies were
selected to receive grants.

       At the time Nassau submitted its application for the Interoperable
Communications Technology Grant, Nassau had been planning to replace its
existing land based mobile radio system. However, according to Nassau’s
application, the plans for the new radio system had only “limited regard” to
interoperability at that time. Although Nassau stated in its application that
grant funding would “leverage” the replacement of the radio system to
provide interoperability, the application did not indicate that the radio
replacement and interoperable projects were to be combined and the related
work accomplished through a single contract.   

      As detailed in this report, we determined that merging the radio
replacement and interoperable projects was the root cause for many of the
problems we identified regarding the verification of the grant-related
expenditures claimed by Nassau.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Code of Federal Regulations:
28 CFR § 66, Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments.

     In conducting our audit, we performed testing of Nassau’s:
 
     	 Internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard grant funds and ensure compliance with the terms and
        conditions of the grant.

     	 Grant expenditures to determine whether the costs charged to
        the grant were allowable, supported, and properly allocated.


                                    - 2 -

     	 Budget management and control to determine the overall
        acceptability of budgeted costs by identifying any budget deviations
        between the amounts authorized in the budget and the actual costs
        incurred for each budget category.

     	 Reporting to determine if the required periodic Financial Status
        Reports and Progress Reports were submitted on time and
        accurately reflected grant activity.

     	 Drawdowns (requests for grant funding) to determine if Nassau
        adequately supported its requests for funding and managed its
        grant receipts in accordance with federal requirements.

     	 Monitoring contracts to determine if Nassau provided adequate
        contract oversight and enforced compliance with the terms and
        conditions of the contract related to the COPS grant.

     	 Matching costs to determine if Nassau provided matching funds
        that supported the project and were in addition to funds that
        otherwise would have been available for the project.

     	 Accountable property to determine whether Nassau had effective
        procedures for managing and safeguarding assets acquired with
        grant funding.

     	 Program performance and accomplishments to determine
        whether Nassau achieved the grant’s objectives and to assess
        performance and grant accomplishments.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   - 3 -

                      FINDINGS AND RECOMMENDATIONS
 
           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       We found that Nassau County requested and received
       $5,963,201 in grant funds for claimed contract-related
       expenditures that were unallowable and unsupported. We also
       found Nassau claimed another $3,117,444 in contract-related
       expenditures as the local match that were unallowable and
       unsupported. We further determined that Nassau significantly
       revised the scope of the project without receiving prior approval
       from COPS. In addition, we identified numerous internal control
       deficiencies related to the administration of this grant that
       contributed to our audit findings.

Internal Control Environment

      Our audit included a review of Nassau’s accounting and financial
management system and Single Audit Reports to assess the risk of
noncompliance with laws, regulations, guidelines, and the terms and
conditions of the grant.2 We also interviewed management staff from
the organization, observed accounting activities, and performed
transaction testing of expenditures and accountable property to further
assess risk.

      From our audit, we identified significant problems in the Nassau Police
Department’s internal control environment related to the administration of
this grant. Specifically, we found that Nassau had no written policy and
procedure manuals for any of the grant administration functions we
reviewed, and the Police Department’s Information Technology Unit and
Communications Bureau (ITU/CB) were not aware of or not focused on the
administrative requirements of the grant.

             Another significant internal control deficiency was the failure to
coordinate the activities of the ITU/CB, responsible for contract oversight,
and the Personnel and Accounting Bureau (PAB) responsible for preparing
Financial Status Reports and making grant funding requests.3 Specifically,
                                                       
       2
          As the agency tasked with grant administration, our internal control environment
review focused on the Nassau County Police Department.
       3
        Financial Status Reports were changed to Federal Financial Reports on October 1,
2009. For purposes of consistency in this report, as all but one of the reports submitted by
Nassau occurred before that date, the term Financial Status Report (FSR) will be used
throughout the report when discussing the required periodic financial reporting.

                                            - 4 -

ITU/CB approved contractor invoices for payment without ensuring the
contractor met the terms and conditions of the contract, including providing
sufficient detail to identify portions of the project that were paid for with
grant funding.

      We determined that the PAB prepared quarterly grant-required
Financial Status Reports (FSRs) and made grant funding requests without
adequate documentation, relying instead on what it was told by other police
department administrators. As a result, Nassau had no documented basis for
requesting $2,468,129 of its final grant funded drawdown.

      Poor coordination between ITU/CB and the Nassau Department of
Public Works (DPW), responsible for accounting and managing cash flow for
the contract, also caused grant administration problems. We determined
that grant-related expenditures reported to COPS on FSRs by PAB were
never recorded in Nassau’s accounting system during the life of the grant.
This occurred because DPW was not instructed by ITU/CB when to pay
contract invoice billings using COPS grant funding or bonds issued by Nassau
County – the two principal funding sources for the project. As a result, all
contract invoice billings were paid only using county bonds, although grant
funds were drawn down. According to County officials, Nassau still had the
$5,963,201 of grant funds on hand at the time of our fieldwork.
Additionally, Nassau appears to have incurred potentially unnecessary
borrowing costs because it paid for claimed grant-related expenditures only
using County bond funds.

      In our judgment, the absence of an adequate and effectively
functioning internal control environment places grant funds at risk and
undermines the ability of the grant recipient to ensure that federal funds are
being adequately safeguarded and spent accurately and properly in
accordance with the grant objectives.

Grant Expenditures

      We reviewed grant expenditures to determine if costs charged to the
award were allowable, supported, and properly allocated in compliance with
grant requirements. We obtained and reviewed all of the invoices and
available supporting documentation for all expenditures charged to the
grant. Additionally, we reviewed cumulative expenditures that were
reported by Nassau on quarterly FSRs and that were also the basis for
Nassau’s periodic requests for grant funding.




                                     - 5 -

      From our evaluation of the FSRs, requests for grant funding, and
inspection of contract invoice billings, we determined that not all of the
expenditures claimed by Nassau as being related to the COPS grant project
were adequately supported. Specifically, we question $9,076,609 in
contractor costs and $1,278 in overtime costs as unsupported.

      Regarding the contractor costs, we found that Nassau could not
provide supporting documentation for the specific costs charged to the
grant. To overcome the lack of supporting documentation for contractor
costs, we asked Nassau to identify an alternate method for justifying the
amounts claimed in the FSRs as being grant related. In response to our
request, Nassau reviewed all of the costs associated with the radio
replacement contract, with the assistance of its contractor, and provided an
allocation methodology that identified $14,080,139 in costs related to the
COPS project that were potentially allowable expenditure charges. The
following table summarizes the costs Nassau and its contractor identified as
being related to the COPS grant.

                Summary of Costs Related to COPS Grant

                 Identified by Nassau and its Contractor 


       Cost Category       Specific/Allocable  General      Total
Equipment located at 33
sites in Nassau and
Suffolk Counties                  $ 3,427,356 $ 1,849,145 $ 5,276,501
Engineering costs                           0   4,305,968   4,305,968
Portable and mobile radios                  0   3,830,714   3,830,714
Miscellaneous costs                         0     666,956     666,956
Total                             $3,427,356 $10,652,783 $14,080,139
Source: Nassau County

      Although this alternative methodology identified more grant related
costs than the combined federal and local match amounts, we found that the
documentation and allocation methods did not justify the $9,076,609
claimed and reimbursed for contractor expenditures because: (1) the
methodology used list prices instead of actual prices for the $14,080,139
allocated to the grant award, and (2) $10,652,783 in allocated expenditures
were based on a “general” methodology that was unreasonable.

     From our data analysis, we determined that this alternative
methodology used data from the contractor’s ordering system that detailed
equipment and services initially requisitioned but not necessarily delivered to


                                     - 6 -

Nassau. Contractor officials also told us that most of the equipment
allocated to the grant-funded project was likely overstated because the
values were calculated using list prices before generally available discounts
were applied.

      While we do not agree with using list prices, we determined that some
of the methods Nassau used for identifying equipment and allocating the
related costs to the grant were reasonable. Specifically, Nassau identified
groups of equipment that were used entirely or partially for interoperable
purposes. For the group of equipment used entirely for interoperable
purposes, 100 percent of these costs were allocated to the grant.
Additionally, for groups of equipment used only partially for interoperable
purposes, these cost allocations were based on the ratio of interoperable
radio channels to total radio channels used by the equipment. In total,
Nassau identified $3,427,356 in grant-related costs using these allocation
methods that we consider reasonable.

      For the remaining $10,652,783 in costs identified by Nassau as grant-
related, Nassau used a “general” allocation methodology that was based on
the ratio of the cost estimate of the grant program to the cost estimate of
the entire radio replacement project. We do not believe this allocation
method is reasonable because it relies on costs originally estimated for the
grant project to identify the actual costs of a project that was substantially
redefined in its scope and approach.

      In addition to our concerns regarding the use of the general allocation
methodology, we determined that some of the costs included in the general
allocation are not actual costs or may not be verifiable at the contract level.
We also have concerns that applying the general allocation rate to all of the
portable and mobile radios purchased through the radio replacement
contract overstates the actual number of radios used for interoperable
purposes.

       Based on our review of claimed contractor costs, we determined that
Nassau could not adequately support claimed contractor expenditure
payments totaling $9,076,609. The reasons underlying these unsupported
expenditures are directly related to the internal control deficiencies we
previously discussed, including a failure by Nassau to hold the contractor in
strict compliance with the terms and conditions of the contract. In our view,
when contractors are not held accountable and expenditures are paid
without evidence of adequate and sufficient supporting documentation, the
risk of misspending is greatly increased and the likelihood of success for the



                                     - 7 -

overall project is potentially compromised. We further discuss this issue in
the Reporting section of this report under Financial Status Reports.

      In addition to the unsupported contractor expenditures, Nassau
charged the grant for $2,207 in overtime expenditures that paid for
3 employees to work 8 days of overtime. We asked Nassau to provide
copies of the time cards for each employee as support for the overtime
expenses. Nassau provided time cards for only one of these employees who
worked 5 days of overtime. Nassau could not provide time cards for the
remaining 2 employees and $1,278 in claimed overtime expenditures.

Budget Management and Control

      According to the Code of Federal Regulations: 28 C.F.R. § 66.30(d),
grantees must obtain the prior approval of the awarding agency whenever
there is any revision of the scope or objectives of the project, regardless of
whether there is an associated budget revision.

       In 2003, COPS approved Nassau’s interoperability project budget
totaling $9,652,867, including $6 million in federal funds and $3,652,867 in
local matching funds. More than 99 percent of the approved budget, or
$9,587,167, was dedicated for payments to the project contractor.

     As part of the grant approval process, COPS requested a more detailed
breakout of the contractor costs included in the budget. In response,
Nassau provided the following information.




                                     - 8 -

                 Budgeted Contractor Costs for Grant 2003-IN-WX-0013
                            Contract Category Cost Elements             Cost

             Conventional Single Station Site 450MHz                    $522,000
             Conventional Single Station Site 500MHz                     104,808
             GPS Simulcast (6 Site)                                    3,612,023
             Console                                                     241,580
             Communication Switch                                      1,070,407
             System Manager                                               78,630
               Equipment Subtotal                                     $5,629,448
             Site Engineering and Design – based on 10
             percent of equipment subtotal                              $562,945
             Program Management (PM) – based on 8 percent
             of equipment subtotal                                       450,356
             Installation, Testing, Optimization, and
             Acceptance – based on 15 percent of equipment
             subtotal                                                    844,417
               Labor Subtotal                                         $1,857,718
             Microwave (includes engineering, design, PM,
             installation, testing and acceptance)                    $1,200,000
             Site Preparation (includes engineering, design,
             PM, installation, testing and acceptance)                   900,000
             Grand Total4                                             $9,587,166
             Source: Office of Community Oriented Policing Services

      Because Nassau merged the interoperability and larger radio
replacement projects in a single contract, a simple comparison of the budget
approved by COPS and a specific interoperable project contract was not
possible.

      We attempted to compare the estimated costs in the approved budget
to the actual costs Nassau identified within the radio replacement contract.
However, both Nassau and contractor officials told us that it was not possible
to crosswalk the cost elements in the detailed budget with what has been

                                                       
             4
         This table was submitted with the Nassau County grant award application.   The
budgeted contractor costs totaled $9,587,167.

                                                          - 9 -

accomplished to date because the approach to the interoperable elements of
the new radio system are significantly different from what was initially
proposed.

      To understand changes to the grant project, we reviewed grant
records and discussed the issue with Nassau and COPS officials. From our
review we determined that Nassau never requested in writing, and COPS
never formally approved, any changes to the original interoperability project
budget.

      Nassau officials told us that in addition to the documented
correspondence we reviewed, they had detailed discussions with COPS
concerning the progress of the interoperability project and believed COPS
was aware of the changes to the project. However, COPS officials told us
that they were not aware that the grant budget was changed and that they
never approved any changes to the budget.

       In determining that Nassau had significantly revised the project scope
to the point that the change required prior approval from COPS, and that
Nassau did not receive this approval, we found that the total amount of
claimed contract payments, or $9,076,609, was unallowable.

       In addition to making changes without prior approval from COPS that
we consider unallowable, we are also concerned that the grant program’s
competitive award process was compromised because Nassau did not follow
through on the project as described in its grant budget which was the basis
for its selection.

Reporting

Financial Status Reports

      Financial Status Reports (FSR) summarize federal monies spent, un-
liquidated obligations incurred, and unobligated balance of federal funds for
each calendar quarter. We reviewed the 25 FSRs Nassau submitted between
2003 and 2010. Due to the extensive delays in completing the radio
replacement project which we will describe later in this report, only 9 of the
25 FSRs reported financial activity.

      We reviewed all of the FSRs submitted for timeliness and found that
4 of the 25 reports were submitted late – reports are due within 45 days
following the end of each quarter. On average, these 4 reports were late by



                                    - 10 -
10 days. We do not believe these late reports had any negative effect on
COPS’s ability to monitor this grant.

      We also reviewed the FSRs for accuracy by attempting to compare the
amounts reported in the FSRs with data from Nassau’s financial system.
However, this was not possible because the expenditures claimed during the
grant period were miscoded in Nassau’s financial system and, as a result,
the system never tracked expenditures as being grant-related during the life
of the grant. We previously addressed this deficiency in the Internal Control
Environment section in this report.

      Because Nassau’s financial system did not track grant-related
expenditures, we sought to support the amounts reported in the FSRs using
source documentation of the underlying expenditures. As shown in the table
below, Nassau claimed a total of $9,080,645 in expenditures. The
contractor budget category totaled 99.95 percent of claimed grant award
expenditures, while the travel and overtime categories totaled less than one
percent of the remaining claimed expenditures.

        Nassau reported $1,829 in travel costs and $2,207 in overtime costs
in six FSRs. We reviewed supporting documentation for travel and overtime
costs and determined that Nassau supported the $1,829 in travel
expenditures, but failed to support $1,278 in overtime with employee time
cards.

       Reported Financial Activity for Grant 2003-IN-WX-0013
                  Federal
                  Share of      Local Share        Total
   Budget         Claimed        of Claimed      Claimed     Percent
  Category     Expenditures Expenditures Expenditures of Total
Travel           $      1,829     $         0   $      1,829   .0201
Overtime                2,207               0          2,207   .0243
Contractor          5,959,165       3,117,444      9,076,609 99.9556
Total            $5,963,201       $3,117,444    $9,080,645       100
Source: OIG analysis of Nassau data

       We discussed the structure and terms of the radio replacement
contract with Nassau and contractor officials and determined that individual
contract billings did not represent specific collections of equipment or
services provided by the contractor. Rather, the amount and timing of the
individual billings were negotiated between Nassau and the contractor and
scheduled to follow the progress of the project.

                                      - 11 -
      Although scheduled interim contract billings did not represent a
discrete collection of equipment or services, the contractor provided Nassau
with engineering and equipment listings related to $2,601,025 in
expenditures associated with two separate contract billings that were
reported in two quarterly FSR submissions during 2007. We planned to
evaluate the process the contractor used to create the listings, but this was
not possible because the contractor told us the listings were created by a
former project manager no longer with the company.

       The FSR for the period ending September 30, 2009, reported the
remaining $6,475,584 in claimed expenditures related to three contract
billings. While we confirmed that the total amount reported in this FSR
matched the total amount of the billings, the federal and local share
amounts reported in the FSR were inaccurate. According to an approved
change order to the original contract that we reviewed, only $2,476,313 of
the $6,475,584 related to the COPS project. The grant award total for the
five contractor billings was $5,077,338.5

      In addition to overstating the FSR by approximately $2,468,129, we
determined that the $2,476,313 identified in the contract change order was
the contractor’s estimate of the grant-related project’s portion, and the
related billings did not include equipment lists or any other documents to
support the portion of the billings related to the grant project.

     A Nassau official told us that the office responsible for preparing the
FSRs was never provided a copy of the contract change order that
authorized amending the billing schedule and that PAB relied on information
from other Nassau officials that indicated the entire amount billed of
$6,475,584 was related to the COPS project.

       In conclusion, we determined that Nassau generally submitted its FSRs
in a timely manner. However, with respect to FSR accuracy, we found that
grant-related expenditures were miscoded in Nassau’s financial system and
three of the FSRs that reported contractor payments were not accurate
because contract billings did not sufficiently identify the COPS grant portion
of the radio replacement project. In addition, the final FSR overstated
grant-related activity as identified in contractor billings by $2,468,129.



                                                       
             5
         The contractor billings appear in Appendix III and are discussed in the Monitoring
Contracts section of this report.



                                                          - 12 -
Progress Reports

       The principal method COPS uses to monitor program performance of
its grants is through progress reports submitted by grant recipients.
Progress reports provide information relevant to the performance of a grant
and the accomplishment of objectives set forth in the approved award. As
part of this audit, we reviewed 9 progress reports Nassau provided to COPS
between 2003 and 2010 for accuracy. Because we already determined that
$9,076,609 in claimed contractor payments was unallowable because
Nassau did not receive prior approval for significant revisions to the scope of
its project, we looked for any references Nassau may have included in these
reports that would have alerted COPS to a potential problem.

       Although it is clear from many of the progress reports that Nassau was
pursuing the interoperability and radio replacement projects simultaneously,
it was not clear that both projects were combined in a single contract.
Furthermore, the progress reports do not suggest that grant funding was
effectively used as a funding source for the radio replacement contract
without adequate identification of the expenditures related to the grant
project.

      Nassau officials told us that in addition to the documented
correspondence we reviewed, they had detailed discussions with COPS
concerning the progress of the interoperability project and believe COPS was
aware of the changes to the project. However, COPS officials told us that
they were not aware that the grant budget was changed and that COPS
never approved any changes to the budget.

      We also reviewed how timely Nassau was submitting these reports.
We determined that 7 of the 9 progress reports submitted to COPS were on
or before the due date and another report was 16 days late. However, the
2007 annual report, due on February 15, 2008, was submitted 109 days late
on June 3, 2008.

Drawdowns

      A drawdown is the actual payment of grant funding by COPS to a
grantee. Grantees are required to time their drawdown requests to ensure
federal cash on hand is the minimum needed for disbursement or
reimbursement.

     As part of this audit, we reviewed the process that Nassau followed to
request grant funding. We began by inspecting Nassau’s financial system


                                    - 13 -
and verified that the receipt of grant funding was properly recorded. In
total, Nassau received $5,963,201 through six separate funding requests.
Information relating to each request is summarized in the following table.

               Drawdowns for Grant 2003-IN-WX-0013
                Date of     Drawdown       Amount of
              Drawdown       Number        Drawdown
              09/14/2004        1            $     817
              11/10/2004                 2                 1,303
              02/04/2005                 3                   202
              07/05/2007                 4               395,101
              09/27/2007                 5             1,559,901
              04/20/2009                  -              (2,322)
              09/22/2009                 6             4,008,396
              05/13/2010                  -                (197)
                 Total                   6          $5,963,201
           Source: Office of Justice Programs

      We determined that Nassau generally requested grant funding on a
reimbursement basis. Specifically, the first five drawdowns were made after
the underlying expenditures were paid. We determined the amounts of
funding requested for each of these drawdowns were based on the amounts
reported in the FSRs described earlier.

       However, we determined that Nassau’s final drawdown was made prior
to receiving the underlying invoices. As already discussed, we determined
that this final FSR was inaccurate because it reported the entire amount of
the three invoices, $6,475,584, as being related to the COPS project rather
than just $2,476,313 identified in the approved contract change order.
Because the same office prepared FSRs and requested grant funding, the
final drawdown was based on the same inaccurate information used to
complete the final FSR. As a result, Nassau had no basis for requesting
$2,468,129 in its final drawdown and we question this amount as
unallowable.

      When we reviewed the circumstances related to the final drawdown,
we learned the drawdown occurred after COPS staff notified Nassau in
September 2009 that the remaining grant funds would expire by the end of
that month, even though the revised end date for the grant was

                                       - 14 -
December 31, 2009. According to COPS, the appropriation that funded the
FY 2003 Interoperable Communications Technology Grant Program was
expiring on September 30, 2009, and therefore the grant funding to Nassau
would also expire at that time.

      In addition to the lack of support for the entire amount of the final
drawdown, we found that Nassau had not actually spent any of the
$5,963,201 it received from COPS for the project. We determined that
because the grant-related expenditures were miscoded in the financial
system, Nassau never reimbursed itself for the expenditures it claimed were
made for the grant-related project. Instead, Nassau used local funds from a
bond issue to pay for all of the expenditures related to the radio replacement
project. As of May 2010, a Nassau official told us that all of the grant
funding remained unused in a Nassau non-interest bearing bank account and
that no transactions have been made to reimburse Nassau for any of the
claimed expenditures funded by the grant.

Monitoring Contracts

      As already detailed in this report, over 99 percent of the budgeted and
claimed grant expenditures were for payments related to Nassau’s radio
replacement contract. Nassau officials told us that after Nassau received the
COPS grant in 2003, Nassau’s Office of Management and Budget decided to
add the $6 million in federal funding from the COPS grant to another
$40 million in local funds from a bond issued to finance the radio
replacement contract signed in 2005.

       We found that the radio replacement contract included a billing
schedule for the entire contract amount and a separate billing schedule for
the grant related funding. However, the contract did not specify a collection
of deliverables or services related to either billing schedule. In addition, the
contract did not identify how much of the individual milestones related to the
federal or local funding shares of the grant related project.

      We reviewed the billing schedule and the actual invoices submitted by
the contractor to understand the relationship between the COPS grant and
larger contract. In Appendix III, we compare the entire contract billing
schedule with the grant-related billing.

      We determined from the original contractor billing schedule that the
grant award equaled 23 percent of the entire radio replacement project
contract. Although we agree with Nassau and contractor officials who assert
that the overall capital project included an interoperable communications


                                     - 15 -
project component, no analysis was completed prior to signing the contract
to justify the amount of grant-related funding committed to the contract.

       In addition, as we have already detailed, there was a significant
difference in the budget approved by COPS and the actual expenditures
claimed by Nassau. Because the actual expenditures are significantly
different from the budget approved by COPS, we believe it was unreasonable
to incorporate the amount of the grant budget in the contract billing
schedule without a detailed analysis to justify those amounts.

      Along with the grant-related billing schedule, the radio replacement
contract also contained a provision that required the contractor to provide
Nassau with all documentation necessary to justify grant-related
expenditures and related reimbursements. However, we found that Nassau
paid contract invoices even though the actual billings did not conform to the
grant-related billing schedule and the contractor did not provide adequate
support to justify the grant-related amounts.

       To understand why the contractor invoiced only $5,077,338, or about
50 percent of the planned grant related billings, and why the contractor
failed to provide adequate justification for claimed grant related
expenditures, we reviewed the process Nassau followed for paying contract
invoices. From our review, we determined that no Nassau official involved in
the contract payment process reviewed or enforced the terms and conditions
of the contract specifically related to the COPS grant.

      We also looked at the amounts identified in contract invoices that
related to the grant-funded project. As shown in Appendix III, actual
invoices provided by the contractor identified only $5,077,338, or about 50
percent of the planned grant related billings of $9,587,167.

       At the conclusion of our fieldwork, Nassau officials told us that there
were invoices that contained additional grant-related expenditures
associated with the project but were not previously identified because the
office responsible for preparing the grant financial status reports did not
receive copies of them.

      We have concluded that Nassau paid invoices related to the radio
replacement contract without adequately detailing the grant-related
expenditures before or after the contract invoices were paid. In addition, we
determined Nassau paid contract invoices without reviewing or enforcing the
contract terms and conditions that specifically related to the COPS grant.



                                     - 16 -
Matching Costs

      The Interoperable Communication Grant Program required a local
match of at least 25 percent. Grantees are required to maintain records that
document the source of local matching funds, the amount paid, and the
timing of payment contributions.

      The budget COPS approved for Nassau’s interoperability project in
2003 included local matching costs of $3,652,867. According to its financial
status reports, Nassau claimed that it had made $3,117,444 in grant-related
expenditures from local sources. However, we determined the contractor
only identified $1,586,302 in costs related to the grant project associated
with local funds, or a difference of $1,531,142.

      Although the amount of claimed expenditures from local sources
exceeds the 25 percent minimum match required by the interoperable grant
program, the required local match for this grant is 37.8 percent, or
$3,652,867 as approved by COPS. We therefore determined that the
amount of identifiable local matching expenditures failed to meet the
required minimum match by $2,066,564.6

       In addition to falling short of the required amount of local matching
contributions, the amount claimed by Nassau is not specifically identified or
sufficiently supported in the grant-related contract invoices. This is related
to the same issues already described in the earlier sections of this report.
As a result we have determined none of the matching expenditures claimed
by Nassau, totaling $3,117,444, were allowable or supportable for the
reasons already described. However, because the claimed expenditures
were paid for from a local bond issue, we determined that the source of the
match was appropriate.

Accountable Property

      According to the 28 CFR § 66.32, agencies that acquire equipment
with grant funds must maintain records that include a description of the
property, a serial number or other identification number, the source of
property, title holder, the acquisition date, and cost of the property,
percentage of Federal participation in the cost of property, the location, use
and condition of the property, and any ultimate disposition data including
the date of disposal and sale price of the property.

                                                       
             6
         The $1,586,302 in contractor identified local match funds was subtracted from the
$3,652,867 required match, not the reported local match of $3,117,444.

                                                          - 17 -
       According to Nassau officials, the County had not inventoried
equipment purchased with grant funds because the equipment was still
owned by the contractor. According to the contractor, a complete list of
equipment for the radio replacement project will be submitted to the County
when the project is completed. At the conclusion of our field work, Nassau
officials had not yet provided us with its plan for identifying and including the
equipment purchased with grant funds into the County’s property
management system.

Program Performance and Accomplishments

      According to Nassau’s 2003 approved award document, the grant
project had the following goals: (1) to develop a formal structure for
developing regional interoperability policy and resolving technical issues,
(2) provide an interoperability solution that will meet the needs of multiple
agencies within Nassau and Suffolk Counties, and (3) provide a solution that
will meet the interoperability needs of first responders across Long Island.

      Nassau revised its original interoperability approach to the grant
project by incorporating elements of it with its radio replacement project,
combining the two into a single contract signed in June 2005. By merging
the grant’s interoperable objectives with Nassau’s radio replacement project
contract, the grant funding, objectives, and schedule were now inseparable
from those of the radio replacement project.

      As a result, grant objectives could not be accomplished until the entire
radio replacement project was completed, which is planned for November or
December 2010. To complete the radio replacement project, it was
necessary for the contractor to acquire license agreements for existing or
new structures prior to developing 33 radio system sites. Some
communities, where these structures are located, initially opposed Nassau’s
plans to add or replace the equipment. According to Nassau officials, they
were able to overcome local opposition to the project but not without serious
delay. Nassau officials attribute most of this delay to the time needed to
negotiate with the affected communities.

      COPS originally gave Nassau one year to complete the interoperability
project, and then gave an automatic extension of another year that
established a revised end date of August 2005. Since the original contract
completion date was September 2007, Nassau needed to ask for additional
grant award period extensions largely because of local opposition that stalled
the acquisition of necessary site license agreements. As shown in the table



                                     - 18 -
below, COPS approved four additional extension requests which established
a final grant award end date of December 31, 2009.

                     Grant Extension Request Summary
       Previous                                                 Revised
       End Date            Request Date          Approved       End Date
      08/31/2004          N/A - Automatic        06/24/2004    08/31/2005
      08/31/2005             05/16/2005          06/14/2005    12/31/2006
      12/31/2006             08/29/2006          10/06/2006    12/31/2008
      12/31/2008             10/03/2008          01/21/2009    06/30/2009
      06/30/2009             05/31/2009          07/15/2009    12/31/2009
      Source: Office of Community Oriented Policing Services

      Following the three extensions that revised the grant end date to
December 2008, Nassau requested two more extensions that COPS
approved, establishing a new end date of December 2009. However, after
approving the final grant extension in July 2009, COPS notified Nassau in
September 2009 that grant funding would expire at the end of that month.
According to COPS officials, although the grant funding expired and the
remaining $36,602 was de-obligated, the grant has not been officially closed
out and remains active.

      Because the interoperability and radio replacement projects are
inseparable and included in a single contract that is still unfinished, it’s not
yet possible to determine whether Nassau will accomplish the grant related
objectives. However, from our review of the claimed project expenditures
including discussions with Nassau and contractor officials, it appears that
Nassau is working towards meeting the project goals.

Conclusions
 
       We determined that Nassau County requested and received
$5,963,201 in grant funds for claimed contract-related expenditures that
were unallowable and unsupported. We also found Nassau claimed another
$3,117,444 in contract-related expenditures as the local match that were
unallowable and unsupported. We further determined that Nassau
significantly revised the scope of the project without receiving prior approval
from COPS. In addition, we identified numerous internal control deficiencies
related to grant administration that contributed to our audit findings.




                                        - 19 -
Recommendations

      We recommend that COPS:

1.	   Remedy the $9,076,609 in unsupportable grant-funded contractor
      expenditures claimed by Nassau and the related drawdowns of grant
      funding.

2.	   Remedy the $9,076,609 in unallowable grant-funded contractor
      expenditures claimed by Nassau and the related drawdowns of grant
      funding.

3.	   Remedy the $1,278 in unsupported overtime expenditures.

4.	   Remedy the $2,468,129 in excess drawdowns that are unrelated to the
      grant award.

5.	   Remedy the $2,066,564 deficiency in the match requirement.
       
6.	   Remedy the $1,531,142 in unallowable local match expenditures that
      are unrelated to the grant award.

7.	   Continue monitoring the grant to ensure grant objectives are met.

8.	   Ensure that the Nassau County Police Department implements policies
      and procedures to adequately administer grant funding that address
      our concerns over the related internal controls. These include, but
      should not be limited to the following: obtaining written approval from
      COPS prior to making significant changes to grant budgets, adequately
      supporting expenditures and drawdowns, identifying grant-related
      expenditures acquired with unrelated expenditures in a single
      procurement, and submitting financial and progress reports that are
      timely, accurate, complete, and adequately supported.

9.	   Ensure that equipment purchased with grant funding is identified and
      included in a property management system as required.




                                   - 20 -
                                                               APPENDIX I 

 

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) grant
expenditures, (3) budget management and control, (4) reporting,
(5) drawdowns, (6) monitoring contracts, (7) matching costs,
(8) accountable property, and (9) program performance and
accomplishments. We determined that program income, indirect costs, and
monitoring of subgrantees were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award of
the grant on September 1, 2003, through December 31, 2009. This was an
audit of the Interoperability Communication Grant 2003-IN-WX-0013.
Nassau had a total of $5,963,201 in drawdowns through May 13, 2010.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audited against were contained in Title 28, Part 66, Code of Federal
Regulations, Uniform Administrative Requirements for Grants and the award
documents.

      In conducting our audit, we reviewed all claimed grant-related
expenditures and drawdowns. In addition, we reviewed the timeliness and
accuracy of Financial Status Reports and Progress Reports, assessed
accountability over assets acquired with grant funding, evaluated
performance to grant objectives, and reviewed the grantee’s monitoring of
the contractor. However, we did not test the reliability of the financial
management system as a whole.




                                   - 21 -
                                                                                    APPENDIX II 

 

                                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                                      AMOUNT          PAGE

Unsupported contractor expenditures                                $    9,076,609        6 & 11

Unallowable contractor expenditures                                     9,076,609             10

Unsupported overtime expenditures                                          1,278              6

Excess drawdowns                                                        2,468,129             15

Local match requirement not met                                         2,066,564             17

Unallowable match expenditures                                          1,531,142             17

TOTAL QUESTIONED COSTS                                             $ 24,220,331

       LESS DUPLICATION7                                           ($15,142,444)

TOTAL DOLLAR-RELATED FINDINGS                                      $    9,077,887


Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                                       
             7
        These costs relate to identical expenditures—though questioned for different
reasons—and as a result, that portion of questioned costs is duplicated. We reduced the
amount of costs questioned by the amount of this duplication.

                                                          - 22 -
                                                                                 APPENDIX III

 
     Total Contract Billing and Grant Related Billing Amounts
                                Original Grant      Grant Related         Grant Related Billings
    Milestone     Original      Related Billing    Costs Identified       in Excess (Less Than)
    Number        Contract           PlanA          by Contractor          Original Billing Plan
       1         $ 1,986,600       $    562,945        $    521,157                $    (41,788)
       2           4,587,000            450,356             279,931                    (170,425)


       3           8,405,970           5,040,302           2,079,868               (2,960,434)



       4           2,455,970                  0                       0                       0




       5           3,435,169           3,533,564           1,765,935               (1,767,629)


       6             993,300                  0             430,447                     430,447


       7           5,020,900                  0                       0                       0

       8           4,997,200                  0                       0                       0

       9             750,000                  0                       0                       0

       10          1,368,300                  0                       0                       0

       11          1,368,300                  0                       0                       0
      12           6,241,510               0                    0                           0
      Total:    $41,610,219       $9,587,167           $5,077,338                $(4,509,829)
    A – The original grant award equals 23 percent of the original contract




                                            - 23 -
                                                                                   APPENDIX IV 

     
         NASSAU COUNTY’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                            
     
 
     
     
     
     
     
     
                                            1490 Franklin Avenue
        EDWARD P. MANDANO                 Mineola, New York 11501          LAWRENCE W. MULVEY
          COUNTY EXECUTIVE                     (516) 573-7000                  COMMISSIONER
     
     

    December 3, 2010


    Thomas O. Puerzer, Regional Audit Manager
    U.S. Department of Justice
    Office of the Inspector General
    701 Market Street, Suite 201
    Philadelphia, PA 19106

    Dear Mr. Puerzer:

            We are in receipt of your draft audit report for the Office of Community Oriented Policing
    (COPS) grant number 2003-INXW0013, and have performed a detailed review of such draft
    report, believing its’ general findings and recommendations are not necessarily unreasonable.
    Specifically, however, we would offer the following clarifications and revisions, requesting they
    be incorporated into your subsequent report:

    1> All references throughout the draft report identify Nassau County as the awardee and we
    request that such identifier be modified to reflect the more concise and specific Nassau County
    Police Department. This request will correct the appearance presented throughout the draft
    report that your Office performed a broader review of multiple County department operations
    covering a representative sample of the County’s grant funds universe, as opposed to one sui
    generis grant awarded to one department of a large suburban municipality.

    2> We take exception to your findings and recommendation of the Internal Controls
    Environment, where you specifically indicate your scope and approach “reviewed Nassau’s
    accounting and financial management system and Single Audit Reports”. Yet no comment was
    made regarding those specific elements of your scope and approach and instead commented
    on internal Police Department programmatic and contract management and administration of
    this specific grant. The suggested correction would clearly define your scope and approach to
    comport with your limited testing of one unique grant from one department of a large suburban
    municipality, thereby preventing your comments from being interpreted incorrectly by users of
    the draft report as a sweeping critique of an entire local governments’ financial accounting
    system.

    3> We recommend that references throughout the draft report be clarified reflecting
    unsupportable costs to be a documentary function only so as not to be construed by the reader


                                                  - 24 -
     
    Mr. Thomas O. Puerzer                                                            Page 2 of 2

    of the draft report to suggest there is no physical evidence of interoperable communication
    technology and that no inspection of such technology was performed by you.


    4> We recommend that references throughout the draft report be clarified to reflect unallowable
    costs are the result of the Department not receiving prior written approval from the COPS Office
    so as not to be construed by the reader of this report to suggest there were no substantive
    communications whatsoever between the Department and the COPS Office with respect to
    Grant plan modifications, progress and achievements.

    In closing, we are in agreement with your recommendation to move this process forward to
    remediate those noted deficiencies by the Department and the COPS Office and are confident
    in our ability to successfully resolve such noted deficiencies working together with the COPS
    Office.


    Sincerely,



                 /s/
    _________________________________
    Lawrence W. Mulvey
    Nassau County Police Commissioner



                  /s/
    _________________________________
    Rob Walker
    Chief Deputy County Executive


    LWM:mjw
    cc:  Andrew A. Dorr, Assistant Director for Grants Administration,
               U.S. Department of Justice, Office of Community Oriented Policing
     
 
     
     




                                                - 25 -
                                                                                         APPENDIX V
 

           OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
                 RESPONSE TO THE DRAFT AUDIT REPORT




                                        U.S. Department of Justice 
                                        Office of Community Oriented Policing Services (COPS) 
Audit Liaison Division 
Two Constitution Square 
145 N Street, NE 
Washington, DC  20530 
(202) 514‐7022(Telephone) 
(202) 616‐4428 (Facsimile) 
 
 

                                        MEMORANDUM


To:                Thomas O. Puerzer
                   Philadelphia Regional Audit Manager
                   Office of the Inspector General

From:              Melonie V. Shine
                   Management Analyst

Date:              December 7, 2010

Subject:           Response to the Draft Audit Report issued on November 2, 2010 for Nassau
                   County, Mineola, New York

       This memorandum is in response to your November 2, 2010, draft audit report on the
Interoperable Communications Technology Grant #2003INWX0013, awarded to Nassau County
(Nassau). For ease of review, each audit recommendation is stated in bold and underlined,
followed by a response from COPS concerning the recommendation.

Recommendation 1 - Remedy the $9,076,609 in unsupportable grant-funded contractor
expenditures claimed by Nassau and the related drawdowns of grant funding.

      COPS concurs that grantees should provide documentation which supports the
expenditures and drawdowns that were made under the grant.




                                                - 26 -
Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
December 7, 2010
Page 2 
 
Discussion and Planned Action

        Nassau did not provide a copy of the draft audit response for COPS to review. Therefore,
COPS will request an explanation and documentation from Nassau concerning the expenditures
and drawdowns that were questioned as unsupported. COPS will determine the appropriate
action concerning this recommendation after reviewing the response from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 1.

Recommendation 2 - Remedy the $9,076,609 in unallowable grant-funded contractor
expenditures claimed by Nassau and the related drawdowns of grant funding.

        COPS concurs that grantees should obtain written acceptance from COPS prior to making
changes to the grant project that was approved based on the submitted grant application and
budget.

Discussion and Planned Action

       COPS will request documentation from Nassau to find out if changes to the grant project
and budget were approved by COPS. After reviewing the response from Nassau, COPS will
determine the appropriate action concerning this recommendation.


Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 2.

Recommendation 3 - Remedy the $1,278 in unsupported overtime expenditures.

      COPS concurs that grantees should provide documentation which supports the
expenditures that were made under the grant.

Discussion and Planned Action

       COPS will request an explanation and documentation from Nassau concerning the
questioned overtime expenditures. COPS will determine the appropriate action concerning this
recommendation after reviewing the response from Nassau.




                                            - 27 -
Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
December 7, 2010
Page 3 
 
Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 3.


Recommendation 4 - Remedy the $2,468,129 in excess drawdowns that are unrelated to the
grant award.

        COPS concurs that grantees should only claim and receive reimbursement for items in
the grant budget that was approved by COPS.

Discussion and Planned Action

       COPS will request an explanation and documentation from Nassau in regard to the
drawdowns that were questioned as excess and unrelated to the grant award. COPS will
determine the appropriate action concerning this recommendation after reviewing the response.


Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 4.

Recommendation 5 - Remedy the $2,066,564 deficiency in the match requirement.

        COPS concurs that grantees are expected to provide documentation to indicate the source
of local match funding, the amount paid, and the timing of the payment.

Discussion and Planned Action

       COPS will request an explanation and documentation from Nassau concerning the
questioned costs that were identified as a deficiency in the local match requirement. COPS will
determine the appropriate action concerning this recommendation after reviewing the response
from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 5.




                                            - 28 -
Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
December 7, 2010
Page 4 
 
Recommendation 6 - Remedy the $1,531,142 in unallowable local match expenditures that
are unrelated to the grant award.

       COPS concurs that grantees should only identify expenditures as a contribution to the
required local match if the items are included in the approved grant budget.

Discussion and Planned Action

       COPS will request an explanation and documentation from Nassau concerning the
questioned costs that were identified as unallowable local match expenditures. COPS will
determine the appropriate action concerning this recommendation after reviewing the response
from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 6.

Recommendation 7 - Continue monitoring the grant to ensure grant objectives are met.

       COPS concurs that grantees should meet the grant objectives as indicated in the approved
grant application.

Discussion and Planned Action

        COPS will request an explanation and documentation from Nassau concerning the status
of the grant project and whether the grant objectives were met. COPS will determine the
appropriate action concerning this recommendation after reviewing the response from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 7.

Recommendation 8 - Ensure that Nassau implements policies and procedures to adequately
administer grant funding that address our concerns over the related internal controls.
These include, but should not be limited to the following: obtaining written approval from
COPS prior to making significant changes to grant budgets, adequately supporting
expenditures and drawdowns, identifying grant-related expenditures acquired with
unrelated expenditures in a single procurement, and submitting financial and progress
reports that are timely, accurate, complete, and adequately supported.




                                            - 29 -
Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
December 7, 2010
Page 5 
 
        COPS concurs that grantees should implement policies and procedures to adequately
administer grant funding.

Discussion and Planned Action

        COPS will request an explanation and documentation from Nassau to confirm that
policies and procedures have been implemented to ensure that grant funding is administered
correctly. COPS will determine the appropriate action concerning this recommendation after
reviewing the response from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 8.

Recommendation 9 - Ensure that equipment purchased with grant funding is identified
and included in a property management system as required.

       COPS concurs that grantees should properly identify grant-funded equipment and
maintain it in a property management system.

Discussion and Planned Action

      COPS will request an explanation and documentation from Nassau to confirm that
equipment purchased with grant funds has been identified and included in a property
management system. COPS will determine the appropriate action concerning this
recommendation after reviewing the response from Nassau.

Request

     Based on the discussion and planned action, COPS requests resolution of
Recommendation 9.

       COPS considers Recommendations 1 through 9 resolved, based on the discussion and
planned actions shown above. In addition, COPS requests written acceptance of the
determination from your office.

        COPS would like to thank you for the opportunity to review and respond to the draft
audit report. If you have any questions, please contact me at 202-616-8124 or via e-mail.




                                            - 30 -
Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
December 7, 2010
Page 6 
 
cc: 	 Martin L. Ward (copy provided electronically)
        Philadelphia Regional Audit Office, OIG

       Richard P. Theis (copy provided electronically)
       Justice Management Division

       Mary T. Myers (copy provided electronically)
       Justice Management Division

       Cynthia A. Bowie (copy provided electronically)
       Audit Liaison Division

       Nancy Daniels (copy provided electronically)
       Audit Liaison Division

       Lawrence W. Mulvey
       Nassau County

       Edward Mangano
       Nassau County

       Grant File: Interop #2003INWX0013

       Audit File


ORI: NY02900
 
 

                                                
 




                                            - 31 -
                                                                APPENDIX VI
 

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT
 
      The OIG provided a draft of this audit report to the Nassau County
Police Department and the Office of Community Oriented Policing Services
(COPS) for review and comment. In its response, which is included as
Appendix IV of this report, Nassau County provided four general comments.
COPS response is included as Appendix V of this report. The following
provides the OIG Analysis of the response and summary of actions
necessary to close the report.

Analysis of Nassau County Response

      Nassau County requested that we revise the report to specify the
Nassau County Police Department as the grantee, rather than Nassau
County. Although the Nassau County Police Department was the agency
tasked with grant administration, the report accurately identifies Nassau
County as the official grant recipient, the organization ultimately responsible
for complying with grant terms and conditions.

       Nassau County also requested clarification of the scope of our internal
control review to avoid readers potentially misinterpreting the report as a
review of the entire County’s financial accounting system. Although the
Objectives, Scope, and Methodology section (Appendix I) of the report
clearly indicates that “we did not test the reliability of the financial
management system as a whole” and this was an audit of the Interoperable
Communications Technology Grant 2003-IN-WX-0013, we have adjusted the
report in the Internal Control section by adding a footnote to emphasize this
point. In addition, we have modified language in the Executive Summary
and the Recommendations section of the report to specify the internal
control issues are related to the Nassau County Police Department.

       Nassau County requested that the report be clarified to reflect that
unsupportable costs are a documentary function to avoid the potential
misunderstanding that there was no physical evidence of interoperable
communication technology. As discussed in the Grant Expenditures section,
the Nassau County Police Department failed to distinguish the grant-funded
interoperable components of the project. During the audit, the police
department could not identify the interoperable components of the project
until it reviewed all of the costs charged to the grant with assistance from
the contractor and developed an allocation methodology for identifying
interoperable channels and related equipment. Additionally, as discussed in
the report, the equipment costs that were identified as grant-funded by the
police department through this process were overstated. As a result of the

                                    - 32 -
 

equipment not being adequately identified as grant-funded as it was
purchased, the interoperable equipment costs were unsupported. Because
the Nassau County Police Department was unable to adequately and
accurately account for the equipment and services grant funding was used to
acquire, we do not agree with the County’s comment that suggests this is
solely a documentary problem.

       Finally, Nassau County recommended that references throughout the
report to unallowable costs specify that these costs were unallowable
because of a lack of prior written approval from COPS. Because the
distinction between prior written approval and conversations with the COPS
Office concerning the progress of the interoperability project were clearly
established in the Budget Management and Control section of the report, we
did not agree with this request and made no changes to the report

Summary of Actions Necessary to Close the Report

    1. Resolved. COPS’s concurred with our recommendation to remedy the
       $9,076,609 in unsupportable grant-funded contractor expenditures
       claimed by the Nassau County Police Department and the related
       drawdowns. COPS stated that it will request an explanation and
       documentation concerning expenditures and drawdowns that were
       questioned as unsupported.

      This recommendation can be closed when we receive documentation
      that COPS has remedied these questioned costs.

    2. Resolved. COPS concurred with our recommendation to remedy the
       $9,076,609 in unallowable grant-funded contractor expenditures
       claimed and the related drawdowns of grant funding. COPS stated
       that it will request documentation from the Nassau County Police
       Department to find out if changes to the grant project and budget
       were approved by COPS.

      This recommendation can be closed when we receive documentation
      that COPS has remedied these questioned costs.

    3. Resolved. COPS concurred with our recommendation to remedy the
       $1,278 in unsupported overtime expenditures. COPS stated that it will
       request an explanation and documentation from concerning the
       questioned overtime expenditures.

      This recommendation can be closed when we receive documentation
      that COPS has remedied these questioned costs.

                                   - 33 -
 

    4. Resolved. COPS concurred with our recommendation to remedy the
       $2,468,129 in excess drawdowns that are unrelated to the grant
       award. COPS stated that it will request an explanation and
       documentation regarding the drawdowns that were questioned as
       excess and unrelated to the grant award.

       This recommendation can be closed when we receive documentation
       that COPS has remedied these questioned costs.

    5. Resolved. COPS concurred with our recommendation to remedy the
       $2,066,564 deficiency in the match requirement. COPS stated that it
       will request an explanation and documentation concerning the
       questioned costs that were identified as a deficiency in the local match
       requirement.

       This recommendation can be closed when we receive documentation
       that COPS has remedied these questioned costs.

    6. Resolved. COPS concurred with our recommendation to remedy the
       $1,531,142 in unallowable local match expenditures that are unrelated
       to the grant award. COPS stated that it will request an explanation
       and documentation concerning the questioned costs that were
       identified as unallowable local match expenditures.

       This recommendation can be closed when we receive documentation
       that COPS has remedied these questioned costs.

    7. Resolved. COPS concurred with our recommendation to continue
       monitoring the grant to ensure grant objectives are met. COPS stated
       that it will request an explanation and documentation concerning the
       status of the grant project and whether the grant objectives were met.

       This recommendation can be closed when we receive supporting
       documentation from COPS indicating that the County accomplished the
       grant objectives.

    8. Resolved. COPS concurred with our recommendation to ensure that
       the Nassau County Police Department implements policies and
       procedures to adequately administer grant funding that address our
       concerns over the related internal controls. COPS stated that it will
       request an explanation and documentation to confirm that policies and
       procedures have been implemented to ensure that grant funding is
       administered correctly.


                                     - 34 -
 


      This recommendation can be closed when COPS provides copies of
      Nassau County Police Department grant administrative policies that
      remedy the related internal control problems. These administrative
      procedures should include, but are not limited to the following:
      obtaining written approval from COPS prior to making significant
      changes to grant budgets, adequately supporting expenditures and
      drawdowns, identifying grant-related expenditures acquired with
      unrelated expenditures in a single procurement, and submitting
      financial and progress reports that are timely, accurate, complete, and
      adequately supported.

    9. Resolved. COPS concurred with our recommendation to ensure that
       equipment purchased with grant funding is identified and included in a
       property management system as required. COPS stated that it will
       request an explanation and documentation to confirm that equipment
       purchased with grant funds has been identified and included in a
       property management system.

      This recommendation can be closed when we receive supporting
      documentation from COPS that verifies that the Nassau County Police
      Department identified and included grant-funded equipment in a
      property management system.  




                                    - 35 -
